                                                                                                   Office of Inspector General

                                                                                                   U.S. Department of Homelai~dSecurit~
                                                                                                   Eastern Region
                                                                                                   Office of Disaster Assistance Oversight
                                                                                                   10 Tenth Street, Suite 750
                                                                                                   Atlanta, Georgia 30309




                                                                          October 19,2006


MEMORANDUM FOR: 	                        Nick Russo
                                         Federal Coordinating Officer
                                         Mississippi Joint Field Office
                                         Biloxi, Mississippi



FROM: 

                                          Director
                                          Eastern Regional Office

SUBJECT: 	                                Review of Hurricane Katrina Activities
                                          City of Gulfport, Mississippi
                                          FEMA Disaster 1604-DR-MS
                                          Report Number DA-07-02

We perfonned an interim review of debris removal costs associated with Hurricane Katrina activities
for the City of Gulfport, Mississippi. The objective of the review was to determine whether the city
was properly accounting for disaster-related costs and whether such costs were eligible for funding
under FEMA's public assistance program. We analyzed the city's accounting system, reviewed its
disaster costs and contracting policies and procedures, and interviewed FEMA and city officials.

The city received an award of $86.4 million from the Mississippi Emergency Management Agency
(MEMA), a FEMA grantee, for debris removal activities. The award provided funding for 13 large
projects and five small projects'. We limited our review to the $46.7 million of costs incurred under
the 13 large projects (see Attachment) as of July 10,2006. As of that date, the city had received
$43.8 million of FEMA funds under the projects.

We determined that the city accounted for and used FEMA funds according to federal regulations
and FEMA guidelines. The city had established a separate cost account to record project
expenditures and accounting entries could be systematically traced to supporting source documents
(checks, invoices, contracts, etc). In addition, the city's contracts for debris removal activities were
awarded according to federal procurement standards (44 CFR 5 13.36).

We discussed the results of our review with FEMA, grantee, and city officials on September 27,
2006. Because this report contains no recommendations, a response is not necessary.

' Federal regulations in effect at the tiine of the disaster set the large project threshold at $55,500.
The nature and brevity of this assignment precluded the use of our normal audit protocols.
Therefore, we did not conduct the review according to generally accepted government auditing
standards. Had we followed such standards, other matters may have come to our attention.

This review was conducted in conjunction with the President's Council on Integrity and Efficiency
(PCIE), as part of its examination of relief efforts provided by the Federal government in the
aftermath of Hurricanes Katrina, Rita, and Wilma. As such, a copy of the report has been forwarded
to the PCIE Homeland Security Working Group, which is coordinating Inspectors' General review
of this important subject.

Should you have any questions concerning this report, please contact me at (404) 832-6700.

Attachment

cc: Secretary
    Deputy Secretary
    Chief of Staff
    Deputy Chief of Staff
    Executive Secretary
    General Counsel
    Chief Privacy Officer
    Chief Financial Officer, DHS
    Chief Procurement Officer, DHS
    Audit Liaison, DHS
    Audit Liaisons, FEMA
    Chief Financial Officer, FEMA
    Regional Director, FEMA Region IV
    Deputy Director, Gulf Coast Recovery
                                                            Attachment
              City of Gulfport, Mississippi
            FEMA Disaster No. 1604-DR-MS


Amount Awarded and Expended Under Large Projects,
as of Julv 10.2006
Project Number     Amount Awarded     Amount Expended
18                     S67.275.000           $30.976.085




8490                     1,611,916              1,611,916
8541                        87,520                 87,480
Total                  $86,383,840            $46,685,259
